OIG Investigative Reports Press Release Fresno, CA., 07/29/2013 - Kern County Woman Pleads Guilty in Federal Student Financial Aid Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
Kern County Woman Pleads Guilty in Federal Student Financial Aid Fraud Scheme
FOR IMMEDIATE RELEASE
www.usdoj.gov/usao/cae
Monday, July 29, 2013
usacae.edcapress@usdoj.gov
Docket #: 1:12-cr-301 AWI
FRESNO, Calif. — Stacey Kinyada Lee, 31, of Edwards, pleaded guilty today to conspiring to defraud the United States and to commit mail fraud in a federal student aid fraud scheme, U.S. Attorney Benjamin B. Wagner announced. The other four defendants in the case have already pleaded guilty.
In her guilty plea, Lee admitted to conspiring from April 2008 to March 2012 to obtain federal student aid funds to which they were not entitled. Lee recruited individuals to act as “straw” students, including co-conspirators Deana Nolen, Willie Prude, Cheaney Key, and Erisheniqua Dixon. She enrolled them at community colleges and submitted false federal financial aid applications and other false documentation to obtain federal student assistance funds in their names, including Pell Grants and federal student loans. Lee enrolled the co-conspirators and other straw students at Barstow Community College, Cero Coso Community College, San Diego City College, and Antelope Valley College. Some of the straw students were not graduates of an accredited high school and did not have an equivalent degree such as a GED, and were therefore ineligible for federal student assistance programs.
According to court documents, Lee typically enrolled herself and others in online classes that they never intended to complete. They either obtained failing grades based on their failure to complete classwork or withdrew from classes after receiving federal financial aid. Some conspirators shared a portion of the aid with Lee as her fee, but she also obtained funds by enrolling individuals without their knowledge to apply for and obtain federal student assistance funds in their names. Through the conspiracy, Lee defrauded the U.S. Department of Education and the colleges of approximately $203,409 in federal grant and student loan funds.
“I’m proud of the work of OIG special agents and our law enforcement colleagues for shutting down yet another student aid fraud ring and holding Ms. Lee and her conspirators accountable for their criminal actions,” said Natalie Forbort, Special Agent in Charge of the U.S. Department of Education Office of Inspector General’s Western Regional Office. “OIG is committed to fighting student financial aid fraud, and we will continue to aggressively pursue those that participate in these types of crimes.”
This case is the product of an investigation by the U.S. Department of Education Office of Inspector General. Assistant U.S. Attorney Kirk Sherriff is prosecuting the case.
Lee is scheduled to be sentenced on October 7, 2013, by Senior United States District Judge Anthony W. Ishii. Lee faces a maximum sentence of five years in prison. The actual sentence, however, will be determined at the discretion of the court after consideration of any applicable statutory sentencing factors and the Federal Sentencing Guidelines, which take into account a number of variables.
####
Top
Printable view
Last Modified: 08/19/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov